No. 20-7813

In the Supreme Court of the United States

RICHARD ALLEN BENSON,
Petitioner,
v.
KEVIN CHAPPELL, WARDEN,
Respondent.
ON PETITION FOR CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

JOINT STIPULATION TO DISMISS

Pursuant to Rule 46.1 of the Rules of this Court, all parties respectfully request
that this case be dismissed, due to the death of the habeas petitioner. No fees are due
to the clerk, and each party will bear its own costs.
Respectfully submitted,

/s/ John R. Grele
JOHN R. GRELE
Law Office of John R. Grele
1000 Brannan St., Suite 400
San Francisco, CA 94103
(415) 655-8776
Counsel for Petitioner

2
ROB BONTA
Attorney General of California
MICHAEL J. MONGAN
Solicitor General
LANCE E. WINTERS
Chief Assistant Attorney General
JAMES WILLIAM BILDERBACK II
Senior Assistant Attorney General
DAVID F. GLASSMAN
Deputy Attorney General
/s/ Joshua A. Klein
JOSHUA A. KLEIN
Deputy Solicitor General
1515 Clay Street, 20th Floor
Oakland, CA 94612
(510) 879-0756
Joshua.Klein@doj.ca.gov
Counsel for Respondent

